<html>
<title> - FEDERAL TRADE COMMISSION AND GENERAL SERVICES ADMINISTRATION THWART COST SAVING CONSOLIDATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  FEDERAL TRADE COMMISSION AND GENERAL SERVICES ADMINISTRATION THWART 
                       COST SAVING CONSOLIDATION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2013

                               __________

                           Serial No. 113-74

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-552 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 3, 2013.................................     1

                               WITNESSES

Mr. David Robbins, Executive Director, Federal Trade Commission
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Chris Wisner, Assistant Commissioner, Office of Leasing, 
  Public Buildings Service, General Services Administration
    Oral Statement...............................................    11
    Written Statement............................................    13

                                APPENDIX

Statement of Rep. Mica...........................................    44
Statement of Rep. Connolly.......................................    46
Building Profiles Submitted by Mr. Mica..........................    47

 
  FEDERAL TRADE COMMISSION AND GENERAL SERVICES ADMINISTRATION THWART 
                       COST SAVING CONSOLIDATION

                              ----------                              


                       Tuesday, December 3, 2013

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., at 
Constitution Center, 400 7th Street, S.W., Washington, D.C. 
20001, Hon. John Mica [chairman of the subcommittee] presiding.
    Present: Representatives Mica, Meadows; and Connolly.
    Staff Present: Will L. Boyington, Press Assistant; Ashley 
H. Callen, Deputy Chief Counsel for Investigations; and Sharon 
Casey, Senior Assistant Clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Government Operations of the Committee 
on Oversight and Government Reform to order. Pleased that I 
could have our distinguished ranking member, Mr. Connolly, from 
Virginia, Mr. Meadows, our colleague from the State of North 
Carolina, join us on the dais today. And we have several 
witnesses that--for a subcommittee hearing, which is entitled 
Federal Trade Commission and General Services Administration 
thwarting some cost-saving consolidation. We will review that 
matter in today's hearing.
    The purpose of our oversight hearings is to--just 
generally, Mr. Issa always opens with his statement--
accountable of taxpayer dollars. And, certainly, I think this 
hearing will show that we are attempting to do the best job 
possible with those limited dollars, tight budgetary 
constraints, and that the people have a right to know how their 
money is spent, and expect a proper reform, us being good 
stewards of their hard-earned taxpayer dollars.
    I am going--the order of business is we will have opening 
statements from Members. Then we will hear from the witnesses. 
And then we will have questions. If anyone has any lengthy 
statements to put in the record--I have to welcome--I will ask 
the witnesses to limit their testimony to five minutes, try to 
move the hearing along as quickly as possible.
    Let me first start by giving a little bit of history. We 
are gathered today--and I will call this the Constitution 
Building--in the Constitution Building. And this is going to be 
the site of about two-thirds of the operations of the Federal 
Trade Commission. Some years ago, the Federal Trade Commission 
came to the Committee on Transportation, which has jurisdiction 
over GSA, and asked--requested additional square footage. They 
were looking at expanding the two locations that they had 
outside of the current FTC building.
    The old FTC building, which was built in the 1930s, is not 
too far from here on Constitution. It is also referred to as 
the Apex Building. It contains about 300,000 square feet, 
approximately. About half of it is used, because it is a 1930 
building. The outside is quite beautiful and classic; the 
inside is 70 years-plus old, and very poor utilization, as even 
evaluated by GSA.
    When they came and asked for additional space, again, they 
had the Apex Building, their headquarters building. They rented 
two other locations. And in those locations, one behind Union 
Station--sometimes referred to, I guess, as NOMA--they had a 
217,000 square-foot rental building, and the lease is expired 
on that. In addition, they had another location, where they had 
additional space. So they had three locations, but were asking 
for additional space.
    When it came before the committee, the Transportation 
Committee, we examined it. We said that we ought to look at 
consolidating it all into one operation. There was also 
interest by the National Gallery of Art, which is directly 
across the street from the FTC building, to take that building 
and utilize it as, actually, the National Gallery North.
    Have we got a copy of that report? Do we have copies of 
that report? And on the front page, people can look at this. 
You see the FTC building, which is triangular. The West Wing of 
the National Gallery, and the East Wing. And this is a plan 
that the National Gallery of Art came up with, to actually make 
this the North Wing of the National Gallery. It would be 
connected by a tunnel over to the West Wing, as we now have 
with the East Wing. The National Gallery of Art rents about 
60,000 square feet, has need for about 150,000 square feet in 
the future.
    So, there aren't too many places that they can go to 
acquire that space. The space in the old FTC headquarters 
building is inadequate, outdated. They actually offered to 
raise private funds to renovate the building, and we estimate 
those funds would be worth approximately $140 million to 
renovate that space, more or less. And they came up with this 
plan, which is incredible, as far as utilization.
    Unfortunately, the General Services Administration went 
forward and is in the process of leasing 203,000 square feet of 
space in the building that we are in right now. This building 
has an interesting history. And there was about a million 
square feet leased, and that lease fell through--actually, the 
courts upheld the lease, and the Federal Government was 
obligated to pay for space here for, I believe, a 10-year 
period. So, they started leasing some of that, GSA did.
    Of the space that we have in this particular building--let 
me see here--we have--FTC is currently looking at leasing 
203,000 square feet. According to the report that we have here 
from GSA, there is a total of--let's see here--I think a total 
need of about 380,000 square feet that are needed. We will get 
the exact figures as we go forward with this.
    But, in any event, what they are doing is proposing to 
bring in two smaller agencies. One they--and the National 
Endowment for Humanities, National Endowment for the Arts, and 
occupy the balance, most of the balance, of that space that is 
available, rather than bringing in the FTC headquarters, which 
would allow substantial consolidation of space, and a dramatic 
savings for the taxpayers. And we will go over some of those 
figures as we get a little bit more into detail.
    There will be substantial savings in consolidation. And the 
Data Center, they run a shuttle--is there a little picture of 
the shuttle? Does somebody have that? Between the three 
buildings that they currently have. This is the FTC shuttle. 
So, things like this will be eliminated if all this operation 
was consolidated into one area.
    Now, everyone who has walked in this building has seen it 
as a--probably one of the nicest facilities in Washington, D.C. 
I brought a few slides. Not all the Members or staff have been 
through the old FTC building, the Apex Building. Can we show 
some of those slides? This is actually the current buildings. 
Again, the old FTC building and current headquarters leased, 
and also leased space--this is--these two are what they are 
consolidating on the right into this facility. And we have the 
FTC building--again, the old one--with about--it is actually 
about 150,000 square feet that they occupy at this time.
    Let's go to some of the interior. This is--you see the 
building you are in. We would like to consolidate them all. 
This is what it looks like in some areas of the old 1930s FTC 
building. Here is old phone booths. Look at the hallways. Look 
at the radiator complex. The building--this is part of the 
electrical system in the old building. It is almost 
embarrassing that the Federal Government would house employees, 
federal employees, in a building of this age and in this 
condition. Are there any other slides?
    [No response.]
    Mr. Mica. So, again, this is a--the building we are in--
203,000 square feet they are consolidating two of those 
operations into. What I want to discuss today is the 
possibility of finishing the consolidation, bringing all the 
FTC into a modern complex that would adequately house their 
staff, their operations, and be a very proud facility for an 
important function of government.
    Mr. Mica. So, those are some opening comments. We will go 
over this a little bit more. I want to open an opportunity to 
the ranking member for some introductory opening comments. Mr. 
Connolly?
    Mr. Connolly. Thank you, Mr. Chairman, and thank you so 
much for holding today's hearing. The Federal Trade 
Commission's historic Apex Building and the National Gallery of 
Art's West and East Buildings, together, form an iconic 
streetscape at the end of the Federal Triangle. Today we 
consider proposals to transfer the FTC headquarters building to 
the NGA.
    I am new to this issue, compared to yourself. And key 
agency stakeholders have been working on this matter for six 
years. I am interested in hearing from all sides this morning 
on the potential savings, potential cost, and operational 
impacts associated with the proposed transfer of the Apex 
Building from the FTC to the NGA.
    You, Mr. Chairman, have been an avowed supporter of the 
arts, which I very much appreciate. And you have sought to 
expand the National Gallery into the Apex Building to enable 
the museum to grow and expand its offering to the American 
public, while consolidating leases and cutting costs.
    I also understand that the FTC and the U.S. General 
Services Administration believe that the transfer would not be 
advisable with respect to operational and financial 
considerations, in addition to historical considerations 
related to the fact that the late President Franklin Delano 
Roosevelt actually built the celebrated Apex Building in 1938 
specifically to serve as the home of then-newly-established 
FTC.
    I want to thank our witnesses for participating at the 
hearing this morning, and look forward to examining the issues. 
I also want to thank the Constitution Center for hosting this 
hearing. This is a beautiful facility, as you indicate, Mr. 
Chairman. And I look forward to getting educated on both the 
pros and cons of the proposed move.
    Mr. Mica. Thank you, Mr. Connolly. I recognize Mr. Meadows 
from North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman. I appreciate both of 
you being here to testify. And, as the chairman has already 
pointed out, obviously, this Subcommittee looks at how we can 
be efficient and how we can make sure the taxpayer dollars are 
well invested.
    Today, as we look at this consolidation, what I am looking 
for from each one of you is a compelling reason on why we 
should spend the extra money. Just to be frank, is there a 
compelling reason why we should be spending $150 million more 
of taxpayer dollars, from either a strategic standpoint or a 
functional standpoint?
    We all know that these are difficult times, from a 
financial standpoint. There is pressure on salaries. And yet, 
if we have a way to save money, which it appears that this is, 
I am looking for why we should be consolidating. I also served 
on--with the chairman on the Transportation and Infrastructure, 
subcommittees there. This is near and dear to my heart when it 
comes to--I know real estate. I have had a career in real 
estate.
    And so, I understand there are subtle differences from time 
to time on why you would make a decision or not make a decision 
in terms of long-term strategic planning. But, quite frankly, I 
am looking to--as our ranking member, Mr. Connolly, said, 
hearing from both sides of the story. And then let's try to 
make the best decision on behalf of the American taxpayers.
    And I yield back to the chairman.
    Mr. Mica. Thank the gentleman, and we will----
    Mr. Connolly. Mr. Chair?
    Mr. Mica. Yes?
    Mr. Connolly. I just want to say to my friend from North 
Carolina I have long been considered an honorary member of T&I.
    Mr. Mica. Well, we appreciate your service, Mr. Ranking 
Member, and we will make you an ex officio member. As the 
former chair, welcome to the T&I.
    [Laughter.]
    Mr. Mica. Our next order of business will be to hear from 
our two witnesses. We have Mr. David Robbins, Executive 
Director at the Federal Trade Commission. Then we have Mr. 
Chris Wisner. He is the General Services Administration Public 
Building Service Assistant Commissioner for Leasing. I 
appreciate both of you appearing before us. This is an 
investigative oversight committee. We do swear in our 
witnesses. So, if you would stand, raise your right hand.
    [Witnesses sworn.]
    Mr. Mica. Okay, and the record will reflect that both of 
the witnesses answered in the affirmative.
    So, with that, we will start with Mr. David Robbins, 
Executive Director of the Federal Trade Commission. Recognize 
him.

 STATEMENT OF DAVID ROBBINS, EXECUTIVE DIRECTOR, FEDERAL TRADE 
                           COMMISSION

    Mr. Robbins. Chairman Mica, Ranking Member Connolly, 
Representative Meadows, thank you for having us today. My name, 
as you said, is David Robbins, and I am the Executive Director 
of the Federal Trade Commission.
    This Committee today is looking at the consolidation of 
Constitution Center of the FTC buildings that we currently are 
renting at New Jersey Avenue and M Street. The FTC has been 
working very closely with the General Services Administration 
to secure and build out space at Constitution Center, this 
wonderful facility, as you have said. The Commission believes 
that the new space is properly configured to sustain its 
mission in a cost-effective manner, consistent with space 
utilization regulations and the Administration's initiative to 
make more efficient use of the government's real estate, known 
as Freeze the Footprint.
    FTC is primarily a law enforcement agency with broad 
jurisdiction over major sectors of the economy. Among its 
missions, the FTC reviews proposed mergers, investigates and 
pursues those engaging in unfair methods of competition and 
unfair or deceptive acts or practices, and returns money to 
injured consumers when possible.
    The FTC also educates consumers and businesses on how best 
to protect themselves, advances policy through research and 
advocacy and public workshops, and works with foreign 
counterparts to harmonize competition and consumer protection 
law across the globe. I think it is also fair to say we take 
very seriously our responsibility to be good stewards of the 
taxpayer dollars, as well.
    The space at the Constitution Center will house staff of 
the Bureau of Competition, the Bureau of Consumer Protection, 
the Hart-Scott-Rodino pre-merger notification filing office, 
the records and filings office, the inspector general's office, 
and other support functions. We are an agency consisting 
primarily of lawyers and economists who, in the course of our 
work, often meet with outside parties, frequently work in teams 
and with experts, and handle large amounts of documents and 
data consisting of highly confidential business and personal 
information. We work collaboratively, and often under deadline. 
The Constitution Center space will meet these particularized 
needs of the agency, while at the same time reducing its space 
utilization rates.
    The FTC's space at Constitution Center has been designed to 
accommodate 905 FTC occupants. FTC staff moving to Constitution 
Center will have significantly smaller offices and less overall 
space than they have now. The agency is using an aggressive 
space utilization rate of 119 square feet per employee. And, by 
way of comparison, in the two currently-leased spaces, the 
utilization rate is approximately 167 square feet. There will 
also be a net savings in rent, once we consolidate those two 
facilities into Constitution Center, not an increase in costs.
    The Commission is aware of the interest of having all FTC's 
employees housed in Constitution Center, so that the FTC 
headquarters building can be given to the National Gallery. As 
both GSA and the FTC have explained, however, that is neither 
physically nor financially feasible. The only current occupied 
space--unoccupied space in Constitution Center is the southwest 
quadrant. As it stands, FTC will occupy a substantial portion 
of this quadrant to accommodate the employees from its two 
currently-leased satellite facilities.
    As I understand it, NEA and NEH are also due to occupy a 
portion of this quadrant in late winter. Even if these 
agencies, though, were forced to give up their offices to the 
FTC, there simply is not enough space in the southwest quadrant 
to house all of FTC's operations in Constitution Center.
    GSA is determined that the FTC requires a minimum of 
446,054 square feet for its entire space needs in D.C. The 
entire southwest quadrant totals only 358,537 square feet. Even 
if, though, all FTC's D.C. operations could be fit into the 
southwest quadrant of Constitution Center, their cost to the 
American taxpayer would be prohibitive. GSA has calculated that 
over 30 years it would cost nearly $172 million more to house 
all of the FTC in the leased space.
    Additionally, significant costs would be incurred to move 
FTC staff from the headquarters building to such a space. GSA 
has estimated over $50 million, and we believe it would be in 
excess of that.
    Moreover, while not having a direct impact on the FTC, 
there are additional costs to taxpayers of giving away the 
FTC's headquarters building, including the loss of its 
estimated fair market value, which is roughly $92 million, and 
the loss of $6 million that the FTC pays into the Federal 
Building Fund each year.
    The FTC's headquarters building is in good condition, 
notwithstanding those pictures, and needs no significant 
renovations, repair, or maintenance, and is expected to meet 
our needs for some years to come.
    Finally, at this time construction of the space here in the 
Constitution Center is more than 40 percent complete, and 
changing our plans would have quite substantial impact.
    In closing, I just want to reiterate the FTC's commitment 
to the Freeze the Footprint initiative, while meeting our 
mission-driven needs. We will continue to work with Congress, 
GSA, and the Office of Management and Budget to complete 
construction of the Constitution Center space in a manner that 
maintains FTC's effectiveness and efficiency. I would be happy 
to answer any questions you might have.
    [Prepared statement of David Robbins follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Mica. Thank you.
    We will recognize Mr. Wisner with GSA now.

 STATEMENT OF CHRIS WISNER, ASSISTANT COMMISSIONER, OFFICE OF 
      LEASING, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Wisner. Good morning, Chairman Mica, Ranking Member 
Connolly, and members of the subcommittee. My name is Chris 
Wisner, and I am the Assistant Commissioner for Leasing at the 
GSA's Public Building Service. I appreciate being invited here 
today to discuss GSA's efforts to provide cost-effective and 
highly-efficient space for our partner federal agencies, and 
GSA's plan to ensure that the existing lease obligation we 
assumed on behalf of the SEC at Constitution Center is properly 
utilized.
    As the PBS Assistant Commissioner for Leasing, I helped 
manage GSA's efforts to assume the balance of SEC's existing 
lease obligation at Constitution Center, and minimize the cost 
to the taxpayers in this location. Constitution Center is an 
example of our efforts to assist an agency that entered into an 
agreement using its independent leasing authority.
    In 2010, the SEC, under its own authority, signed an 
agreement leasing--to lease approximately 900,000 square feet 
in this building. Shortly thereafter, the SEC indicated that 
this space was not needed. The Federal Housing Finance Agency 
and the Office of the Comptroller of Currency agreed to take on 
approximately two-thirds of the space.
    In 2011, GSA reached an agreement with the SEC to assume 
control of and backfill the remaining 358,000 square feet in 
Constitution Center. Since that time, GSA has worked to 
identify potential backfill tenants and minimize the financial 
exposure to the government that would result from this space 
sitting vacant. GSA is taking advantage of the lease hold 
interest in Constitution Center to consolidate space for the 
Federal Trade Commission, the National Endowment for the Arts, 
and the National Endowment for the Humanities.
    FTC will be moving from their two expiring lease locations 
at 601 New Jersey Avenue, N.W. and 1800 M Street, N.W., in 
Washington, D.C. GSA and FTC have used this opportunity to 
reduce FTC's footprint, improving FTC's utilization of office 
space from 167 square feet per person in the old leases to only 
119 square feet in Constitution Center. The balance of this 
space will be used to provide needed housing for NEA and NEH, 
without--whose relocation is essential to GSA's agreement to 
redevelop the Old Post Office.
    As you know, GSA recently reached an agreement to out-lease 
the Historic Old Post Office, securing an investment of $200 
million in private-sector funds in the restoration of the 114-
year-old federal building. This investment will allow GSA to 
convert the Old Post Office into a mixed-use development that 
will serve the local community, preserve the historic facility, 
and save taxpayer dollars.
    The agreement is contingent on GSA's ability to vacate the 
existing federal tenants from the Old Post Office. Relocating 
NEA and NEH in a timely fashion is imperative to GSA's ability 
to implement the proposed redevelopment agreement for the Old 
Post Office, and failure to deliver the unencumbered site will 
result in significant financial penalties for the government. 
Upon delivery of the Old Post Office to our private sector 
partner, we will receive a base rent of $250,000 a month, 
escalating the consumer price index over the next 60-year 
lease.
    The funds that GSA receives from the Old Post Office out-
lease can be used to repair and upkeep of historic federal 
buildings across GSA's inventory, saving additional taxpayer 
dollars.
    GSA's portion of the Constitution Center will have zero 
vacancy, once we complete construction of tenant improvements. 
Construction is underway for all tenants, and FTC space is 
approximately 40 percent complete. The NEA and NEH, as well as 
the FTC employees currently housed at 601 New Jersey Avenue and 
1800 M Street are scheduled to move into this building in March 
of 2014.
    At the direction of Chairman Mica and the House Committee 
on Transportation and Infrastructure, GSA examined alternatives 
for Constitution Center aimed at consolidating FTC's entire 
Washington area presence, including FTC headquarters functions 
currently housed in the historic Apex Building at 600 
Pennsylvania Avenue, N.W.
    Accommodating FTC's projected needs in Fiscal Year 2015, 
even under GSA's improved space utilization standards, would 
require 446,054 rentable square feet. Even at current, on-board 
staff levels, FTC would require more space than is available to 
GSA and Constitution Center. In addition to the space 
limitations, relocating the FTC employees currently housed in 
the Apex Building would increase moving costs by nearly $50 
million. At the same time, the 30-year net present value cost 
of moving FTC headquarters operations from federally-owned 
space into a lease would exceed $70 million.
    Given the size limitations and cost associated with a move, 
consolidating the FTC's entire Washington area presence into 
Constitution Center is not feasible.
    Thank you for inviting me to appear before you today. Given 
GSA's expertise in leasing, we look forward to working to 
continue our dialogue on how to maximize utilization at 
Constitution Center and throughout GSA's inventory. I am 
pleased to take your questions.
    [Prepared statement of Mr. Wisner follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Appreciate both of the witnesses, and we will 
turn right to questions.
    All right, you are leasing 203,000 square feet here, right?
    Mr. Wisner. As of July 2012 we leased 358,000 square feet, 
which we assumed from the SEC.
    Mr. Mica. And in this space, in this--in Constitution you 
have 358,000 square feet, but you are going to occupy 203,000 
square feet for the FTC?
    Mr. Wisner. It is approximately 250,000 square feet for the 
FTC. That is the space that the FTC will be----
    Mr. Mica. Okay. What we are told is 203,000 square feet.
    Mr. Wisner. I can get----
    Mr. Mica. Which would leave 150,000 square feet. We are 
pretty close.
    In the slide that we had a few minutes ago, we had the Apex 
Building, where the headquarters is, 160,000 square feet. And 
if you rent 203,000 or more, that still leaves you with about 
150,000, 140,000 square feet in this building. And that is what 
you intend to give to the--how much do you intent to give to 
the Humanities and to the Arts?
    Mr. Wisner. Chairman Mica, the space for the NEA and NEH is 
about 100,000 square feet.
    Mr. Mica. So, again, in talking to Mr. Moran and others, 
the appropriators, that he is not a very happy camper. First of 
all, it looks like it is being purposely done to put NEH and 
the Arts in here to occupy part of that space, and ignore 
consolidation of FTC.
    I mean there is no reason why you cannot fit the balance of 
what is in the old building. In fact, in the old building you 
have things that would be--in this new building--and, again, 
two of the FTC operations--you have in this building a 
cafeteria, do you not?
    Mr. Wisner. Yes, there is.
    Mr. Mica. Do you have day care in this building?
    Mr. Wisner. Yes, there will be an FTC day care center.
    Mr. Mica. You would have----
    Mr. Wisner. I apologize, sir. I was wrong. There is not an 
FTC day care center in this building. I was incorrect.
    Mr. Mica. Oh, it would be at the other one?
    Mr. Wisner. Yes.
    Mr. Mica. Okay. But that could be consolidated. You have a 
whole list of activities here that could be consolidated. You 
cannot find, again, a consolidation of space that would be 
saved by putting all of FTC together.
    The Data Center, obviously, could be consolidated. Could it 
not?
    Mr. Wisner. I will have to defer to Mr. Robbins on the Data 
Center consolidation, but I don't believe they can----
    Mr. Mica. Well, I can tell you. Mr. Connolly and I looked 
at the consolidation of the Data Centers. And they have two of 
them, and at great expense.
    The biggest expense in moving is the moving of the Data 
Center. You have $34 million in moving the Data Center from New 
Jersey and the other building. I guess most of it is in New 
Jersey. Is that the cost of moving it? How much is moving the 
Data Center? Staff, do you have that information? How much is 
moving the Data Center?
    Mr. Robbins. So the overall IT cost, not only for the Data 
Center, but for also building out all of the networking in the 
building, as well as the AV and other kind of wireless 
facilities is going to roughly be $20 million.
    Mr. Mica. Okay. And that is from New Jersey and the other 
building?
    Mr. Robbins. New Jersey and M Street.
    Mr. Mica. Okay. And, again, if you had one consolidated 
data center, it would be cheaper to operate, probably less 
space required, and, again, the savings from consolidation.
    You wouldn't see any savings from consolidations in that, 
Mr. Wisner?
    Mr. Wisner. The cost to move out of the Apex Building would 
be----
    Mr. Mica. Not the cost to move, the cost to operate. Is it 
going to be cost to move?
    Mr. Wisner. The cost to replace the Apex Building with 
leased space would be about $170 million over 30 years. So----
    Mr. Mica. The cost of what?
    Mr. Wisner. To replace the Apex Building. To----
    Mr. Mica. I am not talking about replacing the Apex 
Building. I am talking about--right now, I am talking about 
consolidations, to put everything right in the building that we 
are in here that you are thwarting.
    Again, we passed resolutions. This resolution was passed by 
the House committee of jurisdiction, which was the 
Transportation Committee. It was passed the 16th of February, 
2011. And it cited, again, consolidation of these facilities. 
Is it GSA's policy just to ignore? Tell the Congress and the 
committee just to go jump in the Potomac River?
    Mr. Wisner. No, sir.
    Mr. Mica. Okay. Well, again, you have----
    Mr. Robbins. If I may, Mr. Chairman, just one on the Data 
Center.
    Mr. Mica. Well--you what?
    Mr. Robbins. So one note on the Data Center. So the Data 
Center operations, or the technology operations we are 
consolidating here, are not our main data center functions. We 
are consolidating AT labs, our litigation support facilities, 
et cetera. It is not the same thing. And, as I understand it, 
there isn't sufficient space in this building, if we even 
wanted to move----
    Mr. Mica. Okay.
    Mr. Robbins.--our current Data Center here.
    Mr. Mica. Okay. This----
    Mr. Robbins. Respectfully, I am just trying to make sure 
you have the information.
    Mr. Mica. You are leasing 203,389 square feet of usable 
space here. You have 655 employees you are putting into this 
building from both New Jersey and M Street. So that is an 
average of 310 square feet per person. That is an average. 
Okay. And you describe most of what you are doing is paperwork.
    Mr. Robbins. So----
    Mr. Mica. Attorneys. I don't see having industrial 
manufacturing, I don't see----
    Mr. Robbins. You are right, we----
    Mr. Mica.--space that are required----
    Mr. Robbins. You are right. We are not doing heavy 
manufacturing----
    Mr. Mica. And you did cite that there is a diminution in 
the square footage, so there is a lot of extra space in this 
area. So is some of that conference rooms and other things that 
you would be using? What is the balance of the space? How much 
did you say per-person square feet utilization, 100-something?
    Mr. Wisner. The new utilization in this building will be 
about 119,000 square feet per person.
    Mr. Mica. A hundred and nineteen----
    Mr. Wisner. I am sorry, sorry, 119.
    Mr. Mica. But, again, the total that you are acquiring--
just do the math. Even a second-grader can do the math. It is 
310, if you take the 655 and divide it. So there is a lot of 
space here that can be used for consolidation----
    Mr. Robbins. Mr. Chairman Mica, I would just note a couple 
things. One is one of the things that enables this agency to 
fit into smaller space with our staff who are going to be 
coming here is that it presupposes that there is going to be 
meeting space, conference space, and other special use spaces--
--
    Mr. Mica. What is the total number of employees that you 
have, total number of employees you have? I have here, as of 
March 2013, the latest, 1,159 FTC employees. And then you have 
some contract people that you also house.
    Mr. Robbins. So the FTC----
    Mr. Mica. Is that right, 1,159?
    Mr. Robbins. So the FTC's FTE ceiling is 1,176. And, like 
any other agency, we have people who leave, and then we have to 
backfill----
    Mr. Mica. No, my concern was how many employees do you 
have. Do you have 1,159 FTC employees? Yes or no? And then you 
have some additional contractors----
    Mr. Robbins. As I----
    Mr. Mica.--is that correct?
    Mr. Robbins. I believe the current number in the D.C. 
area----
    Mr. Mica.--1,340's.
    Mr. Robbins. I believe that the current number of 
employees--so FTE employees--is 1,035, actually, currently.
    Mr. Mica. Okay, 1,035 in D.C.
    Mr. Robbins. In D.C. So----
    Mr. Mica. Okay. And--in D.C. Well, that's even less than 
what I have here, because you are talking about this is total 
in D.C.
    Mr. Robbins. Chairman Mica----
    Mr. Mica. So 1,035----
    Mr. Robbins. Chairman----
    Mr. Mica. And we will give you 250.
    Mr. Robbins. So----
    Mr. Mica. That would give you 1,300. If I gave you 200----
    Mr. Robbins. Chairman?
    Mr. Mica. Hey, just let me finish. If I gave you 200 square 
feet--he is talking about giving them 119 square feet--if I 
gave you 200 square feet, do the math of that. It is, what----
    Mr. Robbins. Here is the problem.
    Mr. Mica. How many?
    Mr. Robbins. So----
    Mr. Mica. It is 240,000 square feet we will give you to 
house employees.
    Mr. Robbins. Chairman Mica----
    Mr. Mica. At 200 square feet a piece, 240,000 square feet. 
There is 358,000 square feet, and you are telling me you cannot 
get the balance of the operation in here? That is bull.
    Mr. Robbins. So, the FTC currently has an inventory of----
    Mr. Mica. This is an abuse of taxpayer money unlike 
anything I have seen. And to renovate a building that is 1930s 
and have someone else pay for it--and don't sit there and tell 
me that the building is worth $90 million, that, in fact, we 
are giving it away. Where does the property stay? Where would 
that property stay, the FTC building?
    Mr. Wisner. The appraised value is about $92 million in 
2011.
    Mr. Mica. Okay, $92 million. But where does it stay? It 
doesn't change hands. It is still in trust for the people of 
the United States. It is part of the inventory, is it not?
    Mr. Wisner. It would leave the GSA federal properties 
inventory.
    Mr. Mica. But it is part of the--it is fee simple to the 
United States of America. It is not to anyone.
    Mr. Wisner. It would not be of use to the federal employee 
base.
    Mr. Mica. Not of use? And, again, you can't consolidate and 
get the balance in here, in the little scam you are playing, to 
bring in two agencies that use part of the space--and again, it 
is what we asked you to do in 2011 that made sense. Again, you 
are saving--they currently lease 60,000 square feet, don't 
they, the National Gallery of Art?
    Mr. Wisner. Sir, they are occupying about----
    Mr. Mica. They lease 60,000 square feet, and they need 
additional space. They are across the street. There is no place 
that is really for them to go to expand their galleries. They 
have this plan and, again, you are thwarting the plan.
    Well, I won't go a second round. I think I get a little bit 
excited about this----
    Mr. Robbins. Chairman Mica, if I may, you had mentioned the 
number of people, so I just wanted to clarify one thing. So it 
is true, in terms of FTE. But, like any modern organization, we 
have a mix of staff, full-time employees, temporary employees, 
contractors in our buildings. Currently, we have an inventory 
of 1,517 seats across our three operations----
    Mr. Mica. One thousand how many?
    Mr. Robbins.--1,517, and we have planned for 1,630.
    Mr. Mica. In Washington, D.C. In Washington, D.C.----
    Mr. Robbins. Correct.
    Mr. Mica. You just told me that you had 1,100, 
approximately. I give you----
    Mr. Robbins. It is a difference between employees and 
people who work in our facility, Mr. Chairman.
    Mr. Mica. Again, if we used his figures, 119 square feet, 
and we have you multiply that, I was giving you 200 and I could 
get to 250,000, and it still leaves 250 minus 300-some square--
358,000 square feet. It still leaves you an incredible amount 
of space for expansion, for activities, for conference rooms, 
for hearing rooms, not to mention any savings from 
consolidation of having some of the operations that are listed 
here being covered.
    Mr. Connolly, thank you.
    Mr. Connolly. Thank you, Mr. Chairman. As a newcomer to 
this issue, I am now confused. So let me try to educate myself.
    Mr. Wisner, the building we are in right now, Constitution 
Center?
    Mr. Wisner. Yes, sir.
    Mr. Connolly. Who owns it?
    Mr. Wisner. It is owned----
    Mr. Connolly. You need to speak into the mic.
    Mr. Wisner. Excuse me. It is owned by a private-sector 
organization. It was originally owned by the Nassif 
Corporation, and now it has been sold to another organization.
    Mr. Connolly. So we don't own it. Do we own the FTC 
building currently?
    Mr. Wisner. Yes, we do own the FTC building.
    Mr. Connolly. The decision was made to move from there 
primarily to here and some other locations for what reason?
    Mr. Wisner. The decision to consolidate out of the two 
lease locations was made to make the SEC lease whole, which is 
the SEC leases--this Constitution lease, which we inherited 
from the action that the SEC took.
    Mr. Connolly. So there was recognition that the current 
site was inadequate.
    Mr. Wisner. Of the two leased spaces? No.
    Mr. Robbins. Can I break in? And I apologize, respectfully.
    Mr. Connolly. I ask you both----
    Mr. Robbins. The----
    Mr. Connolly. You have got to speak into the microphone. I 
cannot hear you.
    Mr. Robbins. The FTC has three buildings, as we have 
discussed, in--at D.C. The Apex, or headquarters building, 
which was never planned to be moved, because it is very cost-
effective for us. The kind of square-foot lease cost to that is 
much lower than getting into a commercial lease, which I think 
everybody has recognized, across government.
    The two properties we were consolidating here are current 
commercial leases, as well, which are expiring. And one has 
expired and we are in holdover, and it is costing us millions 
more to stay there.
    Mr. Connolly. Okay. Point well taken. But I am actually at 
a more fundamental level. What is the square footage at the 
Apex Building right now?
    Mr. Wisner. The Apex Building is about 305,000 square feet.
    Mr. Connolly. Three hundred and five. And you have moved a 
lot of operations here for what reason?
    Mr. Wisner. We have not moved operations in the building 
yet; it is currently under construction.
    Mr. Connolly. Well, but, I mean, the plan is to do that.
    Mr. Wisner. Yes. We will be moving the NEA and NEH from the 
Old Post Office----
    Mr. Connolly. No, no, no, no. I am talking about the FTC 
right now.
    Mr. Wisner. The FTC locations that we are consolidating are 
the two leased facilities at New Jersey Avenue and 1800 M 
Street. We need to get out of those two facilities and 
consolidate into this lease.
    Mr. Connolly. Is it your position, from GSA's point of 
view, that the Apex Building is a functional building?
    Mr. Wisner. The Apex Building is a functional building. It 
is a performing building. And it does not require additional 
investment at this time.
    Mr. Connolly. The Chairman showed some slides trying to 
highlight, you know, it looks like a building that needs 
remodeling and updating to meet normal 21st century office--
commercial office standards. Do you dispute that?
    Mr. Wisner. I am not familiar with those particular 
pictures that were out there. The condition of the building 
that we have from our analytic shows that it is a high-
performing building. I don't believe that it needs significant 
investment at this time, sir.
    Mr. Mica. Mr. Connolly?
    Mr. Connolly. Yes, sir.
    Mr. Mica. Could I answer in the record, here? This is by--
an assessment by GSA. The Federal Trade Building has been 
classified as a 2B--a tier 2B asset for Fiscal Year 2013 by 
GSA's national office. Tier 2B assets are under-performing 
financially, and fail to return a six percent equity. This is 
part of what I just request unanimous consent at this point 
that we insert this in the record.
    [No response.]
    Mr. Mica. Thank you. Without objection, so ordered.
    Mr. Mica. Yield back.
    Mr. Connolly. Why was the decision made to put NEA and the 
National Endowment for the Humanities in this building?
    Mr. Wisner. The NEA and NEH are part of the Old Post Office 
facility. As you know, we are in the process of striking--we 
have struck a deal with a private-sector organization that will 
be reinvesting that property. We needed to exit out of the Old 
Post Office building. We have a significant penalty in that 
building if we stay over in that building.
    There was space available here, in the Constitution Center, 
to consolidate their location and to downsize them. There was 
no other significant block of space that we had available 
within the portfolio at the time that that decision was taken. 
So it made complete sense to move the NEA and the NEH and 
consolidate them out of this location.
    Mr. Connolly. And so, we are dedicating, in this building, 
100,000 square feet to those two?
    Mr. Wisner. Approximately 100,000 square feet, yes, sir.
    Mr. Connolly. Was there any consideration ever by either 
GSA or FTC that that was an opportunity cost, that by not doing 
that we could consolidate a lot more of FTC here?
    Mr. Wisner. The FTC, in total, would not fit in this 
location. I don't know if there was the opportunity cost that 
you are talking about studying that----
    Mr. Connolly. Well, just a second, Mr. Wisner. You have 
currently 305,000 square feet at the Apex Building?
    Mr. Wisner. The Apex Building is about 305,000 square feet, 
gross space, yes.
    Mr. Mica. Only half of it is usable.
    Mr. Connolly. And not all of that is used by FTC.
    Mr. Wisner. No, all of it is used by the FTC. They occupy 
253,000 square feet of rentable space.
    Mr. Connolly. Two fifty-three?
    Mr. Wisner. Yes, sir.
    Mr. Connolly. So, if you--and you have got--and you said to 
the chairman that you think here 250,000, roughly, square feet 
will be dedicated to the FTC mission.
    Mr. Wisner. Yes, sir.
    Mr. Connolly. If you didn't lease to NEA and NEH, 
hypothetically, you could add another 100,000 to that.
    Mr. Wisner. That is the total amount. Yes, sir.
    Mr. Connolly. So then you could get to 350,000 square feet, 
in theory.
    Mr. Wisner. Approximately.
    Mr. Connolly. For--without any modifications to the 
building, which might free up some more square footage, 
depending on what you did, for the FTC mission.
    Mr. Wisner. Yes, sir.
    Mr. Connolly. And you said that we--what you need--maybe, 
Mr. Robbins, you said this--you need 446,000 square feet.
    Mr. Wisner. Yes, sir.
    Mr. Connolly. And is that to accommodate growth? I mean 
that is an increase over what you currently have in toto now.
    Mr. Wisner. That is the number that we calculated in July 
of 2012, when this decision was made.
    Mr. Connolly. But what is the delta that that represents 
between what you currently occupy and what you project you 
need? Often, when we make these kinds of moves, both in the 
private and public sector, we want to add capability, we want 
to be able to do things we can't do now. And so we kind of go 
for the max, rather than the minimum.
    So, that 446,000--what I am trying to get at is--what delta 
does that represent over current de facto numbers?
    Mr. Wisner. I believe you are asking the difference between 
the total lease at Constitution Center and the total 
requirement for the FTC.
    Mr. Connolly. No, I am asking the difference between 446, 
which I think, Mr. Robbins, you stated, is what you--is the 
square footage you need. And I am trying to get at does that 
need include some change from the number you have currently? I 
am trying to get my arms around--is that 50,000 over and above 
what you currently have in order to better meet your needs, 
or--I mean, certainly, you are not telling us that it 
represents zero change.
    Mr. Wisner. No. It would have been--incorporated the change 
or growth that we anticipated with the FTC in July of 2012.
    Mr. Connolly. And what is that change?
    Mr. Wisner. It would have been--I think we were counting 
about 1,006 total employees that would have to be seated.
    Mr. Connolly. In square footage.
    Mr. Wisner. In square footage? I will have to get back to 
you that on [sic], sir. I don't--I can't----
    Mr. Connolly. Do you know, Mr. Robbins?
    Mr. Robbins. I don't, off the top of my head. I apologize.
    Mr. Connolly. Well, okay. So we have a question about the 
delta.
    Mr. Robbins. If I may, one other thing.
    Mr. Connolly. Yes. I have to ask you again to speak into 
the mic.
    Mr. Robbins. I apologize. I am with you. So, one of the 
things----
    Mr. Connolly. Could be my hearing.
    Mr. Robbins. I will get better at this microphone thing, I 
promise.
    When looking at whether to consolidate headquarters 
building with--and this is something that was looked at with 
GSA many years ago, when we were starting down this process, we 
came up with this requirement. But not only did we come up with 
this requirement, we looked at what would be the delta, if you 
would, between government-owned space cost and the cost to get 
into leased space. And the financials just don't make any 
sense. And you don't have to take my word for it. I know, over 
the past couple of years, a couple of bills were introduced in 
Congress, and CBO scored those bills, and there was a net cost 
to taxpayers, not a net savings.
    Mr. Connolly. Yes.
    Mr. Robbins. And so, we did a cost benefit analysis, if you 
would, like any business would. And it would cost more to the 
taxpayer for us to get out of headquarters building, if--what 
our analysis showed.
    Mr. Connolly. Mr. Robbins and Mr. Wisner, I spent 20 years 
in the private sector, and I spent 14 years in local 
government, and I have been involved in many, many relocations 
of government agencies and of my own private-sector company. So 
I have gone through this kind of analysis.
    And I am not unsympathetic to the fact that there is an 
opportunity when you relocate or you consolidate, not only for 
savings, but to also allow you some capabilities maybe you are 
constrained with--meeting rooms, audio visual, amphitheaters, 
auditoriums, and so forth--and those aren't good or bad. They 
are capabilities we seek to be able to function in a more 
professional way. And, you know, I don't think government 
should be a bunch of hermits in a cave. Maybe some of my 
colleagues do, but I don't.
    But, on the other hand, we are trying to get our arms 
around what really--you know, how much is extra in the sense of 
over and above current operations that we are seeking in that 
446. Because we are trying to--you know, we are trying to 
better understand can this building largely accommodate the 
FTC, in theory, if we wanted to, if we didn't want to put NEH 
and NEA here, in theory. And, if you want to get back to us, 
great, but we have got to sort of get the numbers right for us 
to do analysis with you about what can and cannot be done.
    Now, Mr. Robbins, in your testimony I missed part of what 
you said. You said something was 40 percent complete. Was it 
the move?
    Mr. Robbins. The construction of the space here in 
Constitution Center.
    Mr. Connolly. Here.
    Mr. Robbins. Exactly. For those two leases of the property.
    Mr. Connolly. So we are already invested is your point.
    Mr. Robbins. Well invested.
    Mr. Connolly. Well invested. Okay. And the move--I am 
sorry--the consolidation here, roughly, is going to cost around 
$15 million for build-out?
    Mr. Wisner. No.
    Mr. Robbins. So for the two leased properties we are 
talking about, it is $75 million to move them here.
    Mr. Connolly. $75 million.
    Mr. Robbins. Yes.
    Mr. Connolly. Now, you talked about if we were to give up 
the Apex Building to accommodate the National Gallery, it would 
cost us $170 million over 30 years. Is that correct?
    Mr. Robbins. So when GSA ran the numbers, the net present 
value, over 30 years, as I understand it, was that figure, yes.
    Mr. Connolly. That does not include the $75 million we are 
investing in the consolidation here.
    Mr. Wisner. No, sir, it does not.
    Mr. Connolly. And tell us a little how you arrived at that 
$170 million. Because, I mean, just, you know, a naked look at 
that number, it sounds scary.
    Mr. Wisner. It is the total lease cost over 30 years to 
replace the space that would be required if we left the Apex 
Building in the lease market in Washington, D.C.
    Mr. Connolly. Ceteris paribus, all other things being 
equal----
    Mr. Wisner. I am sorry, sir?
    Mr. Connolly. Ceteris paribus, all other things being 
equal?
    Mr. Wisner. Yes, sir.
    Mr. Connolly. I speak Latin, a little. Okay. I guess I 
would want to know--just trying to get my arms around this a 
little, and then I have got to yield back, Mr. Chairman, but I 
think we need to know more about that $170 million cost figure, 
rather than just accept it at face value.
    Mr. Wisner. Yes, sir.
    Mr. Connolly. Not that--not trusting you, but we want to 
understand how you arrived at such a figure.
    Mr. Wisner. Yes, sir.
    Mr. Connolly. And, secondly, I think we need to understand 
that delta. How much of the 446 you say your need is--I am not 
disputing it--represents a delta. And there could be an 
excellent reason for that delta, or much of that delta, but we 
have just got to know what it is, so that we have a better 
handle on the numbers we are dealing with.
    Mr. Wisner. Yes, sir. We can get back to you for the 
record.
    Mr. Connolly. And would I be allowed one final question, 
Mr. Chairman?
    Mr. Mica. Go right ahead.
    Mr. Connolly. Being from Virginia, where rents are cheaper 
and life is perfect, did we look at the relocation of NEH and 
NEA to suburban Virginia or, for that matter, suburban 
Maryland, instead of making the decision to put them here?
    Mr. Wisner. Sir, I think we looked at the entire portfolio 
within the National Capital Region, but I can get back to you 
with the specifics of the----
    Mr. Connolly. Yes, because I would like to also know what 
was the thinking with--because if you put NEH and NEA here, 
perhaps there is a good reason to do that. I would like to hear 
it. You, of course, preclude 100,000 square feet that could be 
Accommodating the FTC. And the chairman has suggested that that 
wasn't done accidentally, that perhaps that was done in order 
to preclude any further pressure by Congress or anyone else in 
further consolidation of FTC here. So I would like to know the 
rationale for why we are commingling FTC operations with NEH 
and NEA here.
    And, with that, Mr. Chairman, I yield back, and I hope----
    Mr. Mica. And at this point in the testimony, I am asking 
unanimous consent--and I will get the information from Mr. 
Moran, the gentleman from Virginia, appropriation, who, I 
think, cited opportunities in Virginia to lease at a lower cost 
to relocate those agencies, if we were looking just at the item 
of cost that were available. So that opportunity, according to 
Mr. Moran--and I talked to him yesterday--he will put something 
in the record about what he did to tell them what was available 
and, again, ignored--and----
    Mr. Connolly. And, as you know, Mr. Chairman, having helped 
us with transit with Northern Virginia, all served by transit.
    Mr. Mica. Yes. I love Virginia.
    The gentleman from North Carolina.
    Mr. Meadows. Thank you. I need to ask a few questions. I am 
confused. And I can be your best ally or your worst nightmare. 
And so cap rates from a internal perspective, you are looking 
at a six percent cap rate? Did I hear that?
    Mr. Wisner. The cap rate on the net present value for the 
30-year lease, or the cap rate for the return on investment?
    Mr. Meadows. The 30 years.
    Mr. Wisner. Yes, sir. I believe it was six percent.
    Mr. Meadows. All right. So did you not find that----
    Mr. Wisner. So we----
    Mr. Meadows. Did you not find that out of line?
    Mr. Wisner. No, I do not.
    Mr. Meadows. So you think that is----
    Mr. Wisner. There are multiple market rates, but I can 
certainly get back to you, sir, I apologize.
    Mr. Meadows. Is that--is it your testimony that the six 
percent cap rate in Washington, D.C. is market----
    Mr. Wisner. Sir, I would like to check the number and get 
back to you specifically on the net present value calculations 
that we did.
    Mr. Meadows. You do this for a living?
    Mr. Wisner. I do this for a living, yes, sir.
    Mr. Meadows. So is that market rate or not?
    Mr. Wisner. I can get back to you on the numbers, sir.
    Mr. Meadows. Okay, all right. So you got 100,000 square 
feet that you classify as unusable, characterize that unusable 
100,000 square feet----
    Mr. Wisner. I am not familiar with the 100,000 square feet. 
There is----
    Mr. Meadows. Well, it was your testimony, one of yours----
    Mr. Wisner. Yes----
    Mr. Meadows.--that you had unusable at the Apex----
    Mr. Wisner. Sir, the rentable square feet of the Apex 
Building is about 253,000 square feet.
    Mr. Meadows. I see----
    Mr. Wisner. So there is about 50,000 square feet that is 
between the gross and the----
    Mr. Meadows. So 100,000--so you are saying there is 50,000 
of unusable space.
    Mr. Wisner. 50,000 between the gross and the usable. Yes, 
sir.
    Mr. Meadows. So characterize that for me, if you would.
    Mr. Wisner. I think there are some--there are hallways and 
there is some historic locations within that facility that we 
need to maintain, sir.
    Mr. Meadows. So those would be--because, normally, if you 
are just talking about open area, that would not necessarily be 
square footage. I mean that may be volume, but it is not square 
footage. So you are saying these are actually hallways, square 
footage?
    Mr. Wisner. Yes, sir.
    Mr. Meadows. Okay. So we are here dealing with this problem 
because somebody screwed up and entered into a lease and then 
tried to default. Is that----
    Mr. Wisner. They did not default. The SEC did not need this 
space after they----
    Mr. Meadows. So you approved that lease.
    Mr. Wisner. The SEC, under their own authority, sir----
    Mr. Meadows. Did the GSA do that?
    Mr. Wisner. No, GSA did not have anything to do with that. 
GSA----
    Mr. Meadows. So it was under their own individual----
    Mr. Wisner. Independent authority. Yes, sir.
    Mr. Meadows. And so, are we charging them back for their 
mistake?
    Mr. Wisner. No, sir. The property was excessed under the 
agreement to GSA, and GSA's responsibility was to dispose or to 
find another tenant for the space, sir.
    Mr. Meadows. So, is there any scenario, Mr. Robbins--and I 
know the projections--is there any scenario which you can see 
to consolidate your operation under one roof?
    Mr. Robbins. In the Constitution Center building, which I 
think we have looked at closely with GSA, the answer is no.
    Mr. Meadows. And why is that?
    Mr. Robbins. There isn't enough space in this building.
    Mr. Meadows. Based on what?
    Mr. Robbins. The square footage that is here, and the 
requirement----
    Mr. Meadows. Based on square footage of----
    Mr. Robbins. No, so based upon--so part of the process we 
went through with GSA----
    Mr. Meadows. Right.
    Mr. Robbins.--was to develop what was our need, as an 
agency----
    Mr. Meadows. Because I heard earlier you were talking about 
internal rates, the rate versus----
    Mr. Robbins. Oh, so that is just the minimal square feet--
--
    Mr. Meadows. Saving----
    Mr. Robbins. So I think--and I would ask Chris to correct 
me if I am wrong here--the rough square footage cost to us of 
the Apex Building is, I think, $23 per square foot. And in a 
general commercial lease, it is $49 per square foot. So just a 
cost doesn't add up. It doesn't make sense. So, even if we were 
to fit into smaller space, you have to go a long way in order 
to have it make sense from a financial perspective.
    But then, on top of it, when you look at the kind of square 
footage in this building, which I think we said is something 
along--the one quad, which is roughly 358,000 square feet, and 
our need, which is 446,000 square feet, there is just a large 
deficit.
    Mr. Meadows. At 400-plus----
    Mr. Robbins. Yes.
    Mr. Meadows. And my friend from Virginia, who was right in 
saying, you know, what is the delta, I mean--and for both of 
you to give a figure like that with rate accuracy is troubling, 
when we don't know where it came from. Do you know----
    Mr. Robbins. So it came----
    Mr. Meadows.--Mr. Wisner said he didn't know where it 
came----
    Mr. Robbins. So--you [sic] will have to apologize. I have 
been back at the FTC for about four months. My understanding, I 
came from the FCC. And I am also living in Virginia. I love 
Virginia. It is--lots of great things we are talking about 
today.
    Mr. Connolly. Wait, wait, wait. Which district?
    [Laughter.]
    Mr. Robbins. I live in Arlington.
    Mr. Connolly. Arlington?
    [Laughter.]
    Mr. Robbins. But I would say a couple things. One is the 
process of any long-term capital planning includes sitting down 
and figuring out how many people do you have, what are your 
needs, and then you figure out a plan around that. And it takes 
a while to do. And we are, as I said, 40 percent complete in 
that building. The delta between kind of what is in this 
building of one quad, which is 358,000 square feet, and the 
plan we came up with, right, is significant.
    If I could put it in people terms----
    Mr. Meadows. Significant in terms of----
    Mr. Robbins. Exactly right. But let's put it in people 
terms, all right? So----
    Mr. Meadows. I want it in square footage terms. What is the 
difference----
    Mr. Robbins. So 446 minus 358 is 87,000 square feet.
    Mr. Meadows. So you increased your space requirement----
    Mr. Robbins. No. So that is just the space that is 
available here, in the building, versus what our requirement 
was. We haven't increased our requirement. It is just the delta 
between what is available here and what our requirement is. So 
that is kind of how I would describe that.
    But if I put it in people terms----
    Mr. Meadows. Okay, let's put it in people terms.
    Mr. Robbins. Sure.
    Mr. Meadows. And I know you gave the answer on the----
    Mr. Robbins. That is okay.
    Mr. Meadows.--so let's go to people terms. How many square 
feet are you giving to each employee per office?
    Mr. Robbins. So, here in the Constitution Center, as we 
have discussed, our utilization rate is 119. Our largest 
offices, and there is only about 20 of them----
    Mr. Meadows. What is ``utilization''? I mean--because that 
is a technical term. So are you saying that each office, they 
would have, on average, 119 square feet per office?
    Mr. Wisner. Yes, sir.
    Mr. Robbins. That is my understanding, yes. So, that is in 
this building. Clearly, in New Jersey and Constitution--and M 
Street, as we have described, the current utilization is much 
higher. It is 167, I think. So we are kind of being able to 
realize a much smaller footprint for our staff here.
    But if I could just put it in people terms for a second, 
all right, so our estimate is--our plan has been to build to 
1,630 kind of seats here in the D.C. area. We currently have 
1,517. There are going to be 905 seats----
    Mr. Meadows. So you are going to increase your number of 
employees by 10 percent.
    Mr. Robbins. So when we developed our plan, the agency was 
growing----
    Mr. Meadows. That was a yes or no question.
    Mr. Robbins. I understand. So we are growing, yes. We 
projected a growth rate when we came up with our plan, because 
we were growing at roughly 30 people a year when we developed 
our plan----
    Mr. Meadows.--authorization that would give you the ability 
to increase that number of employees, and that doesn't track 
with your trends on where you did that. So why would you do 
that?
    Mr. Robbins. So actually, if you look at our FTE rates, our 
FTE rates over the past kind of five years have been growing, 
albeit last year was different. And sequestration has had its 
effect. But we are talking about long-term capital planning 
here, not, you know, what we are doing one night versus the 
next.
    Mr. Meadows. That is not your job; that is GSA's job.
    Mr. Robbins. I understand. But we are already well into the 
investment and the build-out of this space for the two leased 
properties I have discussed, which is going to result in a net 
savings, as I have mentioned, of $5 million, roughly, in annual 
rent.
    But again, if I put it in people terms, so 905 kind of 
seats in this kind of quad that we will be in, seven floors.
    Mr. Meadows. Right, okay.
    Mr. Robbins. And we have roughly 600 or 700 people in our 
Apex Building. We are not going to fit 600 or 700 people in 
three floors. It just doesn't work.
    And then, when you look at the special uses we have in the 
headquarters building, we can talk about the Data Center, we 
can talk about Commission meeting rooms, we can talk about kind 
of the types----
    Mr. Meadows. Nice meeting rooms, certainly.
    Mr. Robbins. Well, we have a Commission meeting room, 
because we are a commission, a bipartisan commission that meets 
regularly to make decisions for the agency.
    Mr. Meadows. So what you are saying is you wouldn't move 
over here because you have a commission.
    Mr. Robbins. No, I am not saying that. I am saying that 
that is just one of the other special spaces that, if you are 
going to fit 700 people into three floors, that is not going to 
work, from a people perspective. Then, when you add on these 
special spaces, it just doesn't make sense.
    And then, when you look at the dollars and cents, it just 
doesn't make any dollars and cents----
    Mr. Meadows. All right, I am going to hold you to that, 
because I want to look at the dollars and cents, all right?
    Mr. Robbins. Fair enough.
    Mr. Meadows. Because that is really what this is about.
    Mr. Robbins. Yes.
    Mr. Meadows. It comes down to a disastrous decision----
    Mr. Robbins. Yes.
    Mr. Meadows.--to lease this building, and then figure out 
what----
    Mr. Robbins. Even if you only looked at the move costs, 
which I think are north of $50 million, what is the 
justification to get into a more expensive lease? It just 
doesn't make any sense.
    Mr. Meadows. I hear you. Here is what I would like, is a 
detailed analysis of the $50 million. And I am not talking 
about--I am talking about a detailed analysis on that $50 
million.
    Mr. Robbins. And just----
    Mr. Meadows. Because we all make assumptions.
    Mr. Robbins. It is a minimum of $50 million. I am not 
suggesting that--you may see something more than that.
    Mr. Meadows. I heard testimony of $50 million. You said $50 
million----
    Mr. Wisner. It is at least $50 million, sir.
    Mr. Meadows. All right. So I want a detailed analysis.
    Mr. Robbins. Understood.
    Mr. Meadows. The second part of that is the reason why you 
heard passion from the chairman is two reasons. One is, quite 
frankly, the GSA had a very real job of managing its assets, 
buildings all around the city, and so that is part of the 
passion. The other is there was a resolution that said to 
consolidate the operation. And this flies in the face of the 
will of the people.
    And you know, when you really look at it--so if your jobs 
are there, and your job, Mr. Robbins, was on the line, and we 
said that we are going to pay you a big-dollar bonus if you 
would figure a way to consolidate this into one operation, 
could you do it?
    Mr. Robbins. So I would hope that you would want to hold me 
to the stewardship standard that we talked about earlier, which 
is, is it in the best interest of taxpayers. And that is what 
we have been looking at.
    Now, maybe there is something about the numbers that you 
know that I don't know. But we can't seem to find a way to save 
taxpayer money----
    Mr. Meadows. Well, there seems to be--and I want to throw 
it out here, I will close with this, and I appreciate my 
colleagues' indulgence--there is a political component to this 
that--and this seems to be an area that doesn't get talked 
about.
    And so, have either of you had any talk around the water 
cooler you have heard of when it comes to whether you 
consolidate, move the operation, not move the operation, move 
from the Apex Building or not? Is there any of that that says, 
``Well, we just want to hold on to what we have got?'' All 
right? ``Because the potential future needs that we might have, 
this is too nice to give up.'' Has any of that conversation 
happened?
    Mr. Robbins. So not with me, Congressman. I happen also to 
be a lover of the arts, and I think the National Gallery is a 
wonderful institution. It just doesn't make sense to give them 
our building.
    Mr. Wisner. No, sir, I have not.
    Mr. Meadows. All right. So there is--so what you are saying 
is, dollars and cents, this is the best move for the American 
taxpayer.
    Mr. Wisner. Yes, sir. In this particular case, for this 
particular lease, and consolidating, yes, sir.
    Mr. Meadows. All right. If you could get me the details of 
that. The other is that I do not want us to look at a delta 
that would increase our square foot footprint. And so, we need 
to look at how we handle that.
    Under sequestration, and under--I think it is not right to 
start looking at increases of employees of close to 10 percent. 
You know, when you start to look at that, based on the trends, 
and you have anywhere from a full-time equivalent of 1,159--
which is actually more than what you gave in your testimony----
    Mr. Robbins. If I may, so if Apex is a given, between New 
Jersey and M Street consolidating here, we will have a net 
decrease in 23,000 square feet between the consolidation. So 
there is a decrease in space utilization, a decrease in the 
space we will be renting when we move here, and a decrease in 
the rent.
    Mr. Meadows. All right. And so then I would ask you, Mr. 
Robbins, is--you have got a staff of people you project is----
    Mr. Robbins. GSA is much bigger than us, but----
    Mr. Meadows. But this is your operation, so I would look at 
what are the increased costs of having it housed in three 
different places. I mean is there an increased incremental 
cost? Because----
    Mr. Robbins. Of course. Mr. Mica--I mean Chairman Mica 
mentioned one. For instance, the shuttle. It does cost us money 
each year. I think roughly $100,000 each year to operate a 
shuttle. It is money that we are spending. It is real money. 
But when you look at the cost benefit of how much will it cost 
us to move out of headquarters versus consolidating here into 
Constitution Center, aside from the fact that there is not 
enough space, the dollars don't add up. The net savings you may 
get from eliminating a shuttle, for instance, don't net out to 
getting below move costs and other costs.
    Mr. Connolly. Mr. Chairman?
    Mr. Mica. Mr. Connolly.
    Mr. Connolly. If I could just be allowed to--a thought, I 
certainly applaud the fact that we are looking to get the best 
deal we can for the U.S. taxpayer. But we should not--well, two 
aspects of that. One is it is always arguable what the best 
deal for the taxpayer is. Right? I mean we could say, ``Let's 
move all of our government operations to the Dominican 
Republic, because it is cheaper there.'' We could get much 
better rent deals in--somewhere in the----
    Mr. Mica. Transportation costs would be----
    Mr. Connolly. Transportation might hurt, but we will have 
fewer meetings. And technology allows us to Skype and all other 
stuff. So there are lots of considerations that go beyond just 
dollars and cents in the analysis. There is functionality, 
there is proximity, there is the ability to interact by having 
consolidation, and so forth. There are values that may be 
intangible, but no less real.
    There is also consideration, certainly for Congress, beyond 
the taxpayer consideration--not that that is trivial. And that 
is looking at the--this picture, and asking one's self, ``What 
is the ideal use for that particular location for the American 
people?'' And what is our responsibility, as Congress, to 
answer that question?
    Now, if we were starting from scratch, would we put the FTC 
in that location? If everything else was in place, would that 
be what we would do? Probably not. I am not quite sure what 
FDR's thinking was about the FTC at the time. Obviously, it was 
an important agency, from his point of view, and it got a lot 
of prominence. And if I were at the FTC, if I were, for 
example, a commissioner at the FTC, I might really like my 
location, and not want to change it, for lots of reasons. You 
know, it is a very prominent location that has status and all 
that good stuff.
    So, I just say that because sometimes we can get into the 
weeds about dollars and cents and miss the bigger picture. And 
I commend to both of my Republican colleagues, you know, the 
current Capitol we have today, the expansion of the United 
States Capitol, the replacement of both chambers and that dome, 
was championed by a man named Jefferson Davis. The only good 
thing he ever did in his life. And he did it right up until the 
day he resigned from the United States Senate to join his 
fellow traitors in the Confederacy.
    But --and he also was up against lots of people saying, 
``What are you spending all this money for on flub-dubs, and we 
can live with the chamber where no one can hear anyone because 
of the acoustics,'' and he had a vision that--and so did 
Lincoln--that, you know, that the Capitol was a very important 
unifying element, and was--it was necessary to invest the tax 
dollars, even though it cost us. Even though you could probably 
today--GSA might argue, if we had GSA doing the analysis back 
in, you know, the 1850s, GSA might have said, ``Just not worth 
it,'' you know? Unnecessary expenditure, and so forth. Aren't 
we glad they made that decision? I am not trying to blame GSA, 
you weren't around then, but--so, I just commend to my 
colleagues there are other considerations.
    It is essential we have a cost benefit analysis, of course. 
But once we do, we also have to look at some other questions 
here. And I think the chairman certainly has put that broader 
vision question in front of us, as well, and it has to be 
answered. I don't know that FTC or GSA can answer that 
question, but certainly Congress can.
    I thank my colleagues for allowing me to intervene.
    Mr. Mica. Thank you. Let's go back. I want to recap here. 
Okay. We are moving 655 employees from two rental spaces, New 
Jersey and M Street, right?
    Mr. Wisner. Yes, sir.
    Mr. Mica. And you are telling me they are going to utilize 
119,000 square feet a person in the plan that you are 
advocating, right?
    Mr. Wisner. The utilization rate, yes.
    Mr. Mica. That is what you testified.
    Mr. Wisner. Yes, sir.
    Mr. Mica. The utilization. And we have a balance of 671 
employees in the headquarters building occupying a usable space 
of--there is 160,000 of 305,000, because it is an old building. 
And I can--I would love to--I need to walk you all through it, 
to see it. Again, the under-utilization. And, again, we will 
put in the record here----
    Mr. Robbins. We would love to have you come visit.
    Mr. Mica. I have been there many times. I can give the damn 
tour.
    So, again, it is a dump. It is a dump.
    Mr. Robbins. I beg to differ.
    Mr. Mica. It is a dump. I mean, compared to what you are 
looking at here. You are putting federal employees in 
substandard office space, in my opinion. Okay? That is my 
opinion. They have the opportunity for probably some of the 
best office space here. We are leasing space at those two 
locations now, consolidating leasing space. We should save 
money.
    The National Gallery of Art is leasing 60,000 square feet, 
needs 140,000, 150,000 square feet in the future, which is 
right across the street. We can't put something together like 
that. There are savings from not leasing, paying for that 
least, of at least 60,000 square feet in the future--say 
100,000 square feet--that they do not calculate.
    They do not calculate, but we do, of the building--the 
building, in my opinion--I have been in this since 1974, in 
real estate--yes, it is usable, but it has a life cycle, and it 
will cost $140 million to bring that up, at least. If GSA does 
it, my God, it will cost two or three times that. I think the 
National Gallery can do it----
    Mr. Robbins. We have no plans--as far as I know, neither 
does GSA--for those expenditures on the Apex Building.
    Mr. Connolly. Mr. Robbins----
    Mr. Mica. Wait, let me just----
    Mr. Connolly. I didn't hear what you said.
    Mr. Robbins. So I believe Chairman Mica just said that 
there was a plan to spend $140 million on the Apex Building, 
and----
    Mr. Mica. No, no one said--no.
    Mr. Connolly. No, no, he said----
    Mr. Mica. I said in the future you are going to have to 
spend quite a bit of money to--I mean to renovate it. It is 
going to need--it is 70 years old. Yes, some--I looked at--I 
have been down in the bowels of it, I have seen what can be 
salvaged.
    Mr. Robbins. I am just saying----
    Mr. Mica. But it needs renovation to accommodate modern-day 
conveniences. Yes, the commissioners have nice views of the 
Capitol, and I know that is important and prestigious. But 
again, you are going to 120 square feet per person. And if we 
take the 655 and the 617, you get to 1,326. Mr. Robbins said, 
``Well, we are going to need 1,500.'' Well, if we use his----
    Mr. Robbins. 1,630, I am sorry.
    Mr. Mica. What?
    Mr. Robbins. I said 1,630.
    Mr. Mica. Well, 1,630. And we do the math, that is 160,000 
and 34,000--would be 196,000 square feet you would need for 
employees, if the employees are being provided space on the 
basis of which--of what Mr. Wisner is putting people in here 
for. You said 119, and I give you 120. So, that is 190,000 
square feet, and there are----
    Mr. Robbins. I am just----
    Mr. Mica. There are 358,000 square feet here?
    Mr. Wisner. Yes, sir.
    Mr. Mica. 358,000 square feet. And you cannot get--we will 
give you 200,000 square feet, and even up the square footage. 
For 158,000 square feet, you can't do that? And then you 
already have the other cafeteria here. Don't they have a 
cafeteria?
    Mr. Wisner. Yes, sir.
    Mr. Mica. They don't need a cafeteria if they come here. 
The consolidation of these other activities that we had listed. 
Again, please don't try to tell me that you cannot give plenty 
of space--much more, even, than you are providing--to your 
employees in a modern building. And there are savings, again, 
in the long-term, the renovation of that building, which will 
need to be done.
    The second thing is that cost of leasing for the National 
Gallery would be eliminated. There are savings----
    Mr. Robbins. But you replace a lease for the National 
Gallery with a lease for the FTC.
    Mr. Mica. We have calculated and recalculated this. And 
then, to top it off, to shove in here the two agencies to take 
enough space to thwart what we asked you to do in 2011. Mr. 
Moran had even given you options.
    I want also to list--you have thwarted our staff in not 
giving us--you said there is no property available in D.C. that 
could accommodate those two agencies.
    Mr. Wisner. The vacancy rate----
    Mr. Mica. They are about 50,000 square feet a piece, right?
    Mr. Wisner. Approximately, yes, sir.
    Mr. Mica. Yes. But you are telling this Subcommittee of 
Congress, under oath, that there is no other property that you 
could put them in.
    Mr. Wisner. At the time----
    Mr. Mica. You could put them in property that we own and 
save money. And we own property that you could put them in 
here. I want you to provide me, the subcommittee, with a list 
of every property. You can't come before us and tell us that 
there is no property. We have--there is property all over this 
town, some that we own, some that we leased.
    Have they given us that list, staff? Answer me. The staff 
said no. I want the list. I will come down and sit in the 
office until I get the damn list.
    Mr. Wisner. Yes, sir, you will have it.
    Mr. Mica. I am absolutely outraged at what is going on here 
with this. This is a perfect example of why American people 
should be fed up with government, to see this nonsense. There 
is no reason at all all the FTC operations cannot be 
consolidated.
    I want to invite every member of the FTC staff here, and I 
will host a reception here, and I will do it beginning in 
January. I want them to come and see what you are denying the 
rest of the people in--again, the current FTC Apex, what you 
are having them go to work in every day, as opposed to what 
they can do. I am going to be here, and I am going to invite 
every one of them, and I will give you the time and date, okay? 
We will do it after work or before work, because I want them to 
come and see. Your union should be outraged that you are 
putting this sham on, again, people who work hard, deserve 
decent space. And again----
    Mr. Robbins. I share your interest in taking care of FTC 
employees, Chairman Mica.
    Mr. Mica. I want them to come and see this facility that we 
are going to put 655 of their brothers and sisters in, and then 
leave them in what I consider a dump----
    Mr. Robbins. I share your interest in making sure FTC staff 
are taken care of. We work every day to make sure that that 
happens.
    Mr. Mica. Well, work every day to get them all consolidated 
here. You have 150,000 square feet. You can give them more 
space than you are giving now on average here, just by sheer 
calculations. An idiot, a first-grader, can do the math on 
that--190,000 square feet. He is giving them 119. Is that 
somewhat inadequate? Is 119 inadequate?
    Mr. Robbins. With respect, we don't believe we can fit the 
rest of our operation in----
    Mr. Mica. Okay, we will go to 200,000 square feet. That 
leaves you 158,000 square feet for all the other things, not 
deducting the things that will be already here, the cafeteria 
and the other items that we cited.
    Again, you can fool some of the people some of the time. 
You can BS people some of the time. And you are not going to 
BS--I will find a way to--and the other thing, too, is that I 
want put on hold the NEH and also the Arts move into this 
building. I want that put on hold.
    I want to talk to Moran. If we have to put it in 
appropriations, whatever we are going to do. You get me the 
list of other locations. And I want to see some locations in 
Virginia with actually lower rent than you are paying here. I 
know they are available, are they not?
    Mr. Wisner. I am not familiar with that, sir.
    Mr. Mica. Okay. Well, you don't know the D.C. rental 
market. I can tell you they are available. Probably some great 
places in Mr. Connolly's district or Mr. Moran's district.
    Mr. Wisner. Sir, I must state that the NEA and NEH space is 
about 35 percent complete in this facility.
    Mr. Mica. What? What did you say?
    Mr. Wisner. The NEA and NEH construction in this building 
is about 35 percent complete.
    Mr. Mica. You have no housing plan, according to staff, for 
NEH and NEA. You haven't provided it to us.
    Mr. Wisner. I can look into that and get you that, sir.
    Mr. Mica. Is this correct, what you gave me? We have no 
housing plan?
    Mr. Wisner. It is committed, sir.
    Mr. Mica. We have no housing plan. We do not have--can you 
get us that?
    Mr. Wisner. I can get that, sir.
    Mr. Mica. Again, I have see the jerry-rigging of the cost 
of moving spaces without any calculations or savings. Mr.--you 
want to go again, or do you want to let Mr. Meadows----
    Mr. Connolly. I have no further questions.
    Mr. Mica. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman. Let me just ask a few 
things.
    Mr. Wisner. Yes, sir.
    Mr. Meadows. We have all this discussion, and you have 
already committed the space to NEH. Is it a moot point, is it 
not?
    Mr. Wisner. The space is under construction currently, sir, 
yes.
    Mr. Meadows. And so, you made that decision in spite of the 
fact that you knew the wishes of the American people was 
otherwise? Why did you make that decision?
    Mr. Wisner. Sir, I cannot answer that.
    Mr. Meadows. Were you aware that that was not the wish of 
the American people?
    Mr. Wisner. No, sir.
    Mr. Meadows. Are you aware of the 2011 resolution?
    Mr. Wisner. Yes, sir.
    Mr. Meadows. So you were aware. And you consciously made a 
decision to lease it to somebody else? Why would you do that?
    Mr. Wisner. There was a requirement that we get out of the 
Old Post Office to avoid the cost in that location----
    Mr. Meadows. That----
    Mr. Robbins. If I may break in for one moment?
    Mr. Meadows. Sure, Mr. Robbins.
    Mr. Robbins. Because I think the will of the American 
people is incredibly important. I know it has been mentioned a 
couple of times. I know on the Senate side there was language 
in the Appropriations Committee reports that actually would 
have prohibited our transferring the Apex Building to somebody 
else.
    Mr. Meadows. Right.
    Mr. Robbins. I realize it was only a committee report, 
but--so there were--obviously, we take seriously the will of 
the people, as expressed in Congress.
    Mr. Meadows. I will remind the gentleman that one----
    Mr. Robbins. Absolutely.
    Mr. Meadows.--does not constitute the will of the American 
people.
    Mr. Robbins. I completely agree, that Congress did have two 
bills over the past few years to consider. And after CBO's 
scoring of these things, I guess--although I obviously don't 
know--the net cost didn't outweigh the benefit to the American 
people, and so Congress decided, in its wisdom, not to pass 
those bills into law, which would have directed us all to take 
a different course.
    Mr. Meadows. So, basically, you made the decision, or your 
agency made the decision to house NEH and--here.
    Mr. Wisner. Yes, sir.
    Mr. Meadows. And under what rationale? I mean is it cheaper 
for them to be here? Because it is obviously not cheaper for 
the FTC to be here.
    Mr. Robbins. It is actually cheaper for us for those two 
leased facilities, but not for our own----
    Mr. Meadows. Right, but they are in their own facility, as 
well. Is it cheaper?
    Mr. Wisner. They are in federal space that must be vacated 
to allow for this renovation to occur.
    Mr. Meadows. So we are making money?
    Mr. Wisner. We--I will have to get back to you on the----
    Mr. Meadows. Based on the numbers--you said $250,000 was 
the lease in----
    Mr. Wisner. The monthly income will be $250,000, once we 
hand it over to the private-sector entity, yes.
    Mr. Meadows. All right, $250,000 a month.
    Mr. Wisner. The agreement states--we will have to get back 
to you.
    Mr. Meadows. Because here is what I find, and what I am 
troubled by. And while this sounds like this is water under the 
bridge and we need to just figure out a best way to accommodate 
Mr. Robbins and--but I don't want to further exacerbate that, 
and it sounds like that is what we are doing, we are making 
decisions for an Old Post Office that I love--I love that 
building--but we are not in the business, you know, of managed 
properties for profit. And you should be, but you are not. I 
mean I have looked at your numbers, and you are not.
    And so, what I am troubled by is we are making decisions to 
house people here, getting rid of a federal building, so we can 
lease it to a multi-purpose use, I guess, is what you would say 
that that--the Old Post Office is. So we are moving them out, 
putting them in a leased facility. And yet we were in a hearing 
yesterday where they were talking about leasing--wanting to 
increase--buildings in this quadrant because we need more 
square footage for this and that. Do you not believe, Mr. 
Wisner, that there is a better, more cost-effective way to 
manage our public buildings than what is currently being 
utilized? Do you think the GSA could do a better job? Or do you 
think the private sector could do a better job of managing the 
federal assets?
    Mr. Wisner. I think we do a good job of managing the 
private----
    Mr. Meadows. I didn't say did they do a good job. Could 
they do maybe a better job?
    Mr. Wisner. I think there is always room for improvement, 
sir.
    Mr. Meadows. All right. So would--your recommendation is to 
do away with the GSA and let the private sector----
    Mr. Wisner. No, sir. That is not what I said. I said there 
is always room for improvement.
    Mr. Meadows. I didn't think you did, but--so, how do we 
make sure that we are most cost effective? Because a lot of 
this today is pent up frustrations is what we are hearing. It 
is saying we have made stupid decisions in the past, let's not 
make them again.
    Mr. Wisner. Yes, sir.
    Mr. Meadows. I am all for great space. I have got 12 
people, at times, in an 800-square-foot office. And Mr. 
Connolly is more senior than I am, and so he has a bigger 
office than I have, and----
    Mr. Connolly. I probably have less space, I am in Cannon.
    Mr. Meadows. Well, I have the smallest office on Capitol 
Hill. So--but that being said, I am all for giving--from a 
functionality standpoint, Mr. Robbins, I want you to have what 
you need. I have had nice offices that I paid for myself. But 
when it comes to managing--Mr. Wisner, if there is one thing I 
want you to take from that, it is that making decisions on 
behalf of the American people need to be made as if you were 
spending your own personal dollars.
    Mr. Wisner. Yes, sir.
    Mr. Meadows. And that is not happening. I am telling you 
decisions are being made every day in this city that we 
wouldn't make--moms, single moms back in my district, wouldn't 
make the same decisions. And they are not even trained to do 
this, but they know, dollars and cents, that it doesn't make 
sense.
    And so, my admonishment to you and my encouragement to you 
is that it is time that you start working a cost-effective way 
for the American people to make sure that the cap rates we get 
are market--I am telling you. I go all over this city. The cap 
rate that you tell me is not an effective cap rate. It may be 
effective in terms of the Federal Government. But the private 
sector pays a whole lot more than that.
    And so, I would challenge you to look at that, and let's go 
after this, make sure the FTC gets what they want, what they 
need--more what they need than what they want, because I think 
that what happens is that we all have--and Mr. Robbins, I 
challenge you. I want you to look for the future needs of 
1,650--you would have plenty here. What I need you to look at 
is certainly the 5-year, 10-year plan. But in that is realize 
the other dollar that is spent is--somebody back home in my 
district is paying for.
    Mr. Robbins. That is exactly what we have tried to do here.
    Mr. Meadows. I yield back.
    Mr. Mica. How many parking spaces are there at the Apex 
Building? Forty? Fifty?
    Mr. Robbins. Give me one moment.
    Mr. Mica. Forty, fifty. I have been down there. The staff--
there is----
    Mr. Robbins. I believe there is 44.
    Mr. Mica. Forty-four. What kind of parking is available 
here? The 655 that are coming in here, I think almost all of 
them will have access to parking.
    Mr. Robbins. I know that we will have----
    Mr. Mica. Is that right, staff? What are we told?
    Mr. Robbins.--from the parking that is available in the 
building. I think it is shared with----
    Mr. Mica. How many spaces here will be available----
    Mr. Robbins. Remember, we are consolidated from New Jersey 
building and M Street, and those folks already have parking, 
which they are accessing.
    Mr. Mica. God forbid we should have someone other than the 
commissioners and 100 paid staff having a parking space. You 
are keeping them in the old----
    Mr. Robbins. I share your concern of FTC employees, and we 
want to take good care of them in all that we do.
    Mr. Mica. I am sure--just told Mr. Connolly it must be full 
of asbestos, too. I will have to check that. All right. Well--
--
    Mr. Robbins. I am not aware of any asbestos issues within 
the headquarters building, Mr. Chairman.
    Mr. Mica. Well, we will check that out. I haven't followed 
through all of the ceilings and stuff. I am sure I can find 
some or bring some in. You can tell I have a distinct interest 
in this. And there are some things that--you know, 600 people 
go in that building a day, 40 park there. The National Gallery 
will have four or five million people that don't need a car 
that will see the nation's treasures, which, again, we haven't 
for several generations done any upgrading of our National 
Gallery to house our national treasures.
    Yes, it was an important building when Roosevelt dedicated 
it. And he did it to consolidate the scattered FTC operations 
in Washington. So, again, this is 2013, looking to the future, 
and consolidating at least three operations. And they came to 
our committee requesting a fourth, and that is when we came up 
with some of this proposal some years ago.
    So, I think, in the long term, it would greatly benefit the 
FTC. I told Mr. Connolly more people will know about the FTC 
building and its headquarters and its operations once you move 
out from that location than ever, because four or five million 
people go in there, it will be a space dedicated to the history 
of the FTC and its use of that building and its function, far 
more--most people, they just put a few signs up in the last few 
years----
    Mr. Robbins. The FTC seeks to serve every American citizen. 
There are hundreds of millions across this nation, for example, 
that have registered on the national Do Not Call registry. We 
serve every American citizen, whether they are visiting D.C. or 
not.
    Mr. Mica. And you house the kind of--and you do a good job 
and you have a great purpose. No one is disputing that. What I 
am disputing is the utilization of the space and consolidation 
of the agency in a cost-effective manner, to the benefit of our 
citizens and taxpayers and all the rest.
    So, without further ado, thank you for--I want to thank Mr. 
Connolly, particularly, for his endurance, and Mr. Meadows for 
his compliance. And thank our witnesses. This is not the end of 
this story, but we will leave the record open for a period of 
10 days. Without objection, so ordered.
    Mr. Connolly. Mr. Chairman?
    Mr. Mica. Yes?
    Mr. Connolly. Just for the record, our two witnesses have 
promised to get back to us with several----
    Mr. Mica. Oh, yes. Oh, yes. We will have a deluge of 
questions, and hopefully getting responsive answers.
    This hearing of the House Government Reform and Oversight, 
Subcommittee on Government Operations is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
















                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
